<html>
<title> - THE INTERACTION BETWEEN THE PAYCHECK PROTECTION PROGRAM AND FEDERAL ACQUISITION RULES: WHAT IT MEANS FOR GOVERNMENT CONTRACTORS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  THE INTERACTION BETWEEN THE PAYCHECK
                   PROTECTION PROGRAM AND FEDERAL 
                   ACQUISITION RULES: WHAT IT MEANS FOR 
                   GOVERNMENT CONTRACTORS

=======================================================================

                                 HEARING

                               BEFORE THE

             SUBCOMMITTEE ON CONTRACTING AND INFRASTRUCTURE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             MARCH 23, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT                              
                               

            Small Business Committee Document Number 117-007
             Available via the GPO Website: www.govinfo.gov             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-803                       WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                        CLAUDIA TENNEY, New York
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
            Ellen Harrington, Majority Deputy Staff Director
                     David Planning, Staff Director
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Kweisi Mfume................................................     1
Hon. Maria Salazar...............................................     2

                               WITNESSES

Mr. Greg Bingham, Partner, HKA, Washington, DC...................     5
Ms. Susan Moser, Partner, Cherry Bekaert, Tysons, VA.............     7
Ms. Robin Greenleaf, PE, Chief Executive Officer, Architectural 
  Engineers, Boston, MA, testifying on behalf of the American 
  Council of Engineering Companies (ACEC)........................     9
Mr. Carlos A. Penin, PE, President, CAP Engineering, Coral 
  Gables, FL.....................................................    10

                                APPENDIX

Prepared Statements:
    Mr. Greg Bingham, Partner, HKA, Washington, DC...............    23
    Ms. Susan Moser, Partner, Cherry Bekaert, Tysons, VA.........    30
    Ms. Robin Greenleaf, PE, Chief Executive Officer, 
      Architectural Engineers, Boston, MA, testifying on behalf 
      of the American Council of Engineering Companies (ACEC)....    35
    Mr. Carlos A. Penin, PE, President, CAP Engineering, Coral 
      Gables, FL.................................................    40
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    AIA - American Institute of Architects.......................    41

 
  THE INTERACTION BETWEEN THE PAYCHECK PROTECTION PROGRAM AND FEDERAL 
      ACQUISITION RULES: WHAT IT MEANS FOR GOVERNMENT CONTRACTORS

                              ----------                              


                        TUESDAY, MARCH 23, 2021

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Contracting and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 12:00 p.m., via 
Webex, Hon. Kweisi Mfume [chairman of the Subcommittee] 
presiding.
    Present: Representatives Mfume, Golden, Newman, Salazar, 
Stauber, Meuser, Fitzgerald, Andy Kim, Schneider, and Hagedorn
    Chairman MFUME. Ladies and gentlemen, good afternoon since 
it is technically a few minutes after noon.
    I want to call this meeting to order officially and I want 
to make some important announcements which also are 
requirements.
    Let me begin by saying that the standing House and 
Committee rules and practices will continue to apply during 
these remote hearings. All members are reminded that they are 
expected to adhere to these standing rules, including the rules 
that cover decorum.
    House regulations, as most of you know, require members to 
be visible through a video connection throughout the entire 
proceeding, so to the extent possible, please keep your cameras 
on. Also, please remember to remain muted until you are 
recognized in order to minimize background noise. If you have 
to participate in another proceeding that might be going on 
simultaneously, please exit this one and then log back in if 
you can later.
    In the event that a member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available member of the same party and I 
will recognize that member at the next appropriate time if he 
or she is able to correct the problem.
    Again, I know all of you have busy schedules. I appreciate 
everybody taking time to be here. I am going to formally 
introduce our witnesses in just a few moments but let me just 
underscore the fact that this hearing on the Subcommittee on 
Contracting and Infrastructure for the 117th Congress is our 
first. And for our opening hearing I thought it was very 
important to examine an issue that is a priority for government 
contractors and that is the interplay between the Federal 
Acquisition Regulation, also known as the FAR, and the Paycheck 
Protection Program, also known as PPP.
    The FAR serves as a primary set of rules governing all 
executive agencies and their acquisitions of goods and 
services. And so today we will focus on part 31 of Far, which 
helps contractors determine which costs are, in fact, 
reimbursable.
    Specifically, we will be taking a look at an aspect of the 
credit cause, which can impact Federal contractors who have 
taken advantage of the Paycheck Protection Program. Congress 
created the PPP to help, as we know, small businesses, meet 
payroll costs and other expenses. These loans were designed to 
be fully forgivable if small businesses spent loan proceeds on 
these purposes.
    However, Federal contractors, mainly those with false 
reimbursable contracts, may find themselves owing the 
government a credit if the PPP loan has been forgiven and it 
was used to pay for costs that were under a government 
contract.
    So this is by far some of the virtue of FAR credits and the 
motion of the credit clause, which is included in these type of 
arrangements and more specifically I should say, in these type 
of contracts.
    In April 2020, shortly after PPP's launch, the Department 
of Defense issued guidance stating that the loan amounts could 
constitute credits. In essence, the government's position has 
been to take a credit that is due to avoid duplication of 
payments. With that said, some small contractors will argue 
that this is antithetical to the PPP program's intent which is 
to help struggling firms during a time of crises.
    Contractors contend that if the government forces them to 
repay portions of the loan through credits, then the PPP loan 
was not truly forgivable.
    So today, we will have an opportunity to examine the 
varying positions on this critical issue, and during the 
hearing it will be very important to note that the Defense 
Contract Audit Agency has issued additional guidance on the 
treatments of credits. And while there is certainly room for 
more guidance, this one represents, I think, an important first 
step because it clarifies that when a contractors receives PPP 
loan forgiveness, only the amount of the loan forgiveness 
allocable to a government contract results in a credit.
    So moreover, it clarifies other matters that help ensure 
appropriate application of credits of which we will learn more 
about today in the hearing that is now beginning.
    It is clear that this is a complex issue with significant 
ramifications for small government contractors. I hope that 
today's hearing will allow us to dive deep into the subject and 
to better understand all sides of the issue, as well as 
available guidance that might come to us or that might shed 
light on this subject just as the new guidance did today.
    This hearing is an essential first step in coming to a 
resolution that does not inflict further harm on the small 
businesses already suffering from this pandemic across the 
country.
    So again, I want to thank the witness for joining us here 
today, and now I would like to yield to the Ranking Member, Ms. 
Salazar of Florida for her opening statement.
    Ms. SALAZAR. Thank you, Chairman.
    It is undeniable that small business contractors play a 
critical role in the Federal sphere. As you have said, these 
businesses are innovators. They drive down the costs by 
promoting competition and their flexibility allows them to be 
agile and adaptable, while continuing to deliver excellent 
results often faster and cheaper than their larger 
counterparts.
    That is why protecting these essential members of our 
workforce is critical to maintain Federal operations at a best 
and optimal level.
    But they are not immune, and they have not been immune to 
the far-reaching effects of the COVID-19 pandemic. Indeed, 
small businesses everywhere, specifically in District 27, have 
suffered from the governmental imposition of endless lockdowns 
and restrictions. And many have suffered from cuts to billable 
hours, widespread project cancellations, significant 
disruptions in cashflow, and interruptions in their ability to 
perform on the contract.
    I have spoken to many of my small business contractors in 
District 27 in South Florida that I represent in Congress, and 
many of them have shared their concerns, including my 
constituent, Mr. Carlos Penin, who is here with us today as a 
witness.
    Many small contractors have turned to their Paycheck 
Protection Program (PPP), anticipating they may be able to 
receive loan forgiveness provided they comply with the criteria 
that has been established by the government.
    But apparently, the rules have changed. When the Department 
of Defense (DOD) issued in April 2020 a memorandum applying 
Federal Acquisition regulations cost principles to the PPP 
forgiveness, DoD had classified forgiveness of the PPP loan as 
a credit allowed under contract. Now, the DoD has dictated that 
the contractor must give this amount back to the government.
    According to the Department of Defense, this application of 
the Federal Acquisition Regulation may be necessary to prevent 
against potential abuse by contractors who are seeking a 
windfall by billing the government twice. This activity is 
known as double dipping, and we are here, elected in Congress, 
to prevent exactly that and to help safeguard taxpayers' money.
    However, the contracting community has raised several 
concerns with the DoD's strategy. Some contractors argue that 
the DoD's disposition contradicts congressional intent on the 
PPP. Others have taken the view that this unfairly impacts 
certain contract types triggering a requirement for payment of 
the PPP for some contractors but not for others.
    So many take issue with the DoD's change of rules 
expressing their concerns and that they were surprised. This 
was a surprise decision which was made unilaterally without 
their consent. Now as we know, the deadline for forgiveness is 
around the corner and they must decide what to do with their 
loan. For some, PPP may be a welcome and necessary supplement 
to their existing cashflow, but for others it may not be worth 
the trouble, particularly in light of how application of the 
Federal Acquisition Regulation credit may negatively affect 
future revenues.
    So I hope, and I am sure you do, Chairman, through the 
insight of our distinguished panelists, we will be able to gain 
a better understanding of the DoD's stated policy, its 
potential effects on small contractors, and identify flexible 
solutions in a bipartisan fashion.
    Thank you for your time, and I yield back, Chairman.
    Chairman MFUME. Thank you very much. The Ranking Member 
yields back. And I want to thank her for her comments and thank 
again all of you who are here joining us.
    By the way, if Committee members have an opening statement 
prepared, we would ask that they be submitted for the record.
    And while I am at it, I am going to ask unanimous consent 
that every member has 5 legislative days to revise and extend 
their remarks.
    I would like to just take a moment to explain how this 
remote hearing will proceed. Each witness will have 5 minutes 
to provide a statement and each Committee member will receive 5 
minutes for questions. Please ensure again that your microphone 
is on when you begin speaking and that you return to mute when, 
in fact, you are finished.
    So I would now like to now introduce our witnesses. Our 
first witness today is Greg Bingham, a partner at KHA and a co-
lead of their Government Contracts group. He is a forensic 
accounting and quantum expert with over 33 years of experience 
in the field of business consulting primarily for government 
and construction contractors. Mr. Bingham is an authority on 
government contracts, having served as an adjunct professor at 
the George Washington University, and among his professional 
memberships, Mr. Bingham is also a member of GW's Government 
Contracts Advisory Board. He holds a Bachelor of Science degree 
in Electrical Engineering and an MBA degree as well. Welcome, 
Mr. Bingham.
    Our second witness is Ms. Susan Moser. Moser. I am getting 
that wrong but I will say Moser until I am corrected. And if I 
am wrong, please forgive me. Ms. Moser is a partner at Cherry 
Bekaert and the leader and founder of their Government 
Contracting Services Group. Ms. Moser has 36 years of 
professional experiences and advises contractors in multiple 
areas. She also serves as a regional market leader of the 
Cherry Bekaert's Virginia, D.C., and Maryland practices, and is 
a board member of the Northern Virginia Chamber of Commerce. 
She holds a Bachelor of Science degree in Engineering--in 
accounting, excuse me--and is a certified public accountant and 
a certified information technology professor. Thank you very, 
very much, Ms. Moser. Again, forgive me if I am mispronouncing 
your name.
    Our third witness today is Ms. Robin Greenleaf. Ms. 
Greenleaf has more than 30 years of professional experience and 
is the chief executive officer and founder of the Architectural 
Engineers in Boston. She is a professional engineer and an LEED 
accredited professional. Ms. Greenleaf holds a Bachelor of 
Science in Civil Engineering and a Master of Science in 
Structural Engineering. She is the Co-Chair elect of the 
American Council of Engineering Companies. Welcome again, Ms. 
Greenleaf.
    Our final witness before I yield back, and Mr. Penin. 
Please bear with me because I am just making sure that I have a 
bio on you. I did not see one here. Okay.
    Ms. SALAZAR. Chairman, I have it here.
    Chairman MFUME. I have it. Oh, no, I do not. You do have 
it?
    Ms. SALAZAR. Yes. Yes, I do.
    Chairman MFUME. Please, please, please introduce him, would 
you?
    Ms. SALAZAR. All right. Absolutely. Thank you. Thank you, 
Chairman.
    I would like to welcome our final witness who is from my 
district, District 27 in Florida, Mr. Carlos Penin. Mr. Penin 
is the president and founder of CAP Engineering. CAP is a 
minority-owned consulting firm specializing in providing 
engineering services for government clients. Under his 
leadership, CAP Engineering has earned a stellar reputation for 
the professional management of its infrastructure projects and 
this has resulted in 30 years of dependable services to satisfy 
government clients. Mr. Penin has an extensive resume with over 
40 years of direct project experience and managerial expertise. 
Among his many accomplishments, Mr. Penin worked on several 
major architectural and engineering projects in South Florida, 
including Joe Robbie Stadium, the widening of the Julia Tuttle 
Causeway and the reconstruction of SW Eighth Street. Lastly, I 
would like to congratulate Mr. Penin on his recent appointment 
by Florida Governor Ron DeSantis to the South Florida Regional 
Transportation Authority Governing Board. I wish you well in 
your new role, and thank you for all that you have done, not 
only for our district, District 27, but for the United States 
and for this magnificent country who opened its arms to you and 
to your family when you were a little boy. Same case with me, 
and that is why we are so grateful, and I am delighted to have 
you here talking to us and explaining, and giving us your 
experience in this last 40 years.
    Now I yield back, Mr. Chairman. Thank you.
    Chairman MFUME. Thank you, Ms. Salazar. Hopefully, we will 
make a great one-two punch throughout the 117th Congress and I 
appreciate you stepping up and doing what you could in terms of 
properly introducing Mr. Penin. And Mr. Penin, thank you very 
much, as with all the witnesses again for being here today.
    Madam Salazar, I am going to move to start introducing or 
calling for remarks of the witnesses unless you have a question 
or comment or observation at this point.
    Ms. SALAZAR. You can proceed with all the witnesses. Thank 
you, Chairman.
    Chairman MFUME. Thank you.
    Mr. Bingham, you are now recognized for 5 minutes, sir.

STATEMENTS OF GREG BINGHAM, PARTNER, HKA; SUSAN MOSER, PARTNER, 
 CHERRY BEKAERT; ROBIN GREENLEAF, PE, CHIEF EXECUTIVE OFFICER, 
 ARCHITECTURAL ENGINEERS; CARLOS A. PENIN, PE, PRESIDENT, CAP 
                          ENGINEERING

                   STATEMENT OF GREG BINGHAM

    Mr. BINGHAM. Thank you. Thank you. This is quite an honor 
to get to testify here today.
    As you mentioned, the FAR, the Federal Acquisition 
Regulation is the primary set of rules used by the U.S. 
Government Executive Branch agency. The FAR has 53 parts and 
FAR 31 is dedicated to cost principles and procedures.
    A key part of FAR 31 is what is the composition of total 
cost of a contract and that is key to this credit issue. The 
cost of a contract is the sum of allowable direct costs, 
allowable indirect costs, less any allocable credit. And so 
there is more about this credit point in the credit clause, 
which is at FAR 31.201-5. Examples of credits are things like 
state tax refunds.
    This credit clause is not new. It has been in the FAR since 
the FAR began in 1984. It was in the Armed Services Procurement 
Regulation as early as 1948 in essentially the same form as it 
is today.
    The impact of the FAR credits clause is different on cost 
reimbursement contracts than on fixed price contracts. If a 
contractor incurs $1,000 in cost generally speaking on a cost 
reimbursement contract, they will be reimbursed $1,000. Any 
event that reduces the allowable cost incurred on a contract 
will reduce the amount reimbursed under a typical cost 
reimbursement contract. And a credit is an example of something 
that would reduce the cost on a cost reimbursement contract.
    The impact of the credit clause is different on fixed price 
contracts. In fixed price contracts, the invoicing and payment 
provisions generally focus on the contractor demonstrating they 
have provided some specified product or service and requesting 
payment of a predetermined price. And so if the contractor 
incurs more cost or less cost, they still get that 
predetermined price on a fixed price contract.
    So a credit will reduce a particular contract's cost and 
reduce the amount paid on a cost reimbursement contract but not 
on a fixed price contract.
    As an example, let's say Contractor A works solely with the 
Federal government and holds only fixed price contracts. 
Contractor A has a PPP loan worth $1 million forgiven in 2020. 
There would be no repayment to the government for any of the 
forgiven loan in this example. Contractor B works solely with 
the Federal government and holds only cost reimbursement 
contracts. Contractor B had a PPP loan worth $1 million 
forgiven in 2020. Contractor B would repay the government for 
this loan under this scenario.
    There are different types of costs. The major categories of 
cost are direct and indirect. And direct costs are for people 
that are actually working on contracts. Sometimes the labor of 
people working on contracts is referred to as touch labor 
because the mechanic's hands are actually touching the car or 
on the assembly line people are actually performing the work. 
Indirect costs are for costs that are not working on the 
contractor and more for the growing concern of the company. And 
so typical indirect costs are things like facility rent or the 
salary and benefits of the office administrator that works in 
the office and benefits all contracts, does not work on any 
particular contract but on all contracts.
    Indirect costs are often expressed in terms of an indirect 
cost rate. So an indirect cost rate is the ratio of indirect 
costs to direct costs. So remember numerator, denominator, top 
of the ratio, bottom of the ratio. You have got indirect costs 
on top and the direct costs on the bottom in a typical example. 
And so it might be expressed as something like 5 percent.
    For years that have already passed, a company can determine 
all of the direct costs and indirect costs that were incurred 
in this prior year. And so in a typical process, after these 
costs are audited by the government, the company and the 
government negotiate a final settlement of what was the 
indirect cost rate for that prior year. There are things called 
forward pricing rates. And so for years that are not yet 
completed, as 2021 is now not completed, and for years which 
have not yet commenced, government contractors often develop 
estimates of the total amount of indirect and direct costs that 
will be incurred over the course of the year.
    It should not be assumed that future years will have 
exactly the same indirect cost rate as a prior year. There can 
be nonrecurring events and the forgiveness of a PPP loan in 
2020 may well be a nonrecurring event. Maybe an event that 
occurs in 2020 that you do not anticipate will occur in future 
years. And if that is the case, then the indirect rates for 
2021 and future years should not be based at all, solely or 
blindly on whatever the experience was in 2020.
    And with that I will----
    Chairman MFUME. You probably looked at the clock and 
started wrapping up, but we have exhausted the amount of time 
for you. If you would let us get through the others I am sure 
there are going to be some questions directed your again. And 
again, I appreciate your understanding.
    Mr. BINGHAM. Certainly. Certainly. Thank you for this 
opportunity.
    Chairman MFUME. Sure. Sure.
    The question is now for Ms. Moser. Ms. Moser, again, I know 
I have said it several times, if I am mispronouncing your name, 
please correct me because with a name like mine I cannot afford 
to do that.
    Ms. MOSER. Thank you.
    Chairman MFUME. You are mute.

                    STATEMENT OF SUSAN MOSER

    Ms. MOSER. Thank you. Chairman Mfume, Ranking Member 
Salazar, and members of the Committee, thank you for the 
opportunity to speak today.
    My name is Susan Moser and I would like to take this 
opportunity to talk about the government's guidance on PPP 
forgiveness and its impacts on contractors today and moving 
forward.
    As was previously mentioned, the interaction between the 
FAR and PPP was first addressed in April 2020 when DoD answered 
a frequently asked question and made clear that DoD expected 
PPP loan forgiveness would result in a credit to the government 
on flexibly priced contracts. Subsequent to this guidance, 
confusion began as most companies have a mix of flexibly priced 
and firm-fixed price contracts and many contractors plan to 
only seek forgiveness of certain costs which could be a mix of 
direct and indirect costs.
    While the impact of PPP forgiveness on flexibly priced 
contracts has been made clear, the contractor community needs 
clarity around how to handle forgiven costs under other 
contract arrangements, including contracts with state 
transportation agencies. To date, agencies have issued limited 
guidance with conflicting information that contractors are 
struggling to understand and apply. DCAA did issue guidance, 
revised guidance in January of 2021 that confirmed that credits 
should be recorded based on how costs were recorded when 
incurred. DCAA also stated that a PPP loan forgiveness credit 
should be allocated to the accounting period in which it is 
received.
    The guidance is contrary to generally accepted accounting 
principles and at least two decisions by the Court of Federal 
Claims and its predecessor court. For most companies, 
forgiveness for costs incurred in 2020 will occur in 2021.
    I would also like to note that the impact of the Employee 
Retention Credit creates the same challenges for contractors. 
Much of the concern regarding guidance has come from 
architecture and engineering or A&E firms doing business with 
state transportation agencies who receive funding from the 
Federal Highway Administration. These contracts carry many FAR 
requirements. There is concern with potential draft guidance 
being considered by the Highway Administration that would 
require all PPP forgiveness credits to be applied to indirect 
costs. Accounting for credits in this way is inconsistent with 
FAR Part 31 and would result in reduced indirect cost rates for 
the year in which the credit is applied, but could also apply 
throughout the life of multiple year contracts awarded in the 
year in which the reduced rates were established, potentially 
resulting in reduced indirect rates for multiple years.
    Understandably, many A&E firms are concerned with the 
implications of this anticipated guidance. Most states' 
Department of Transportation agencies require A&E firms to have 
an indirect rate audit conducted by a CPA firm. Our firm 
performs many of these types of audits.
    State DOTs are trying to get guidance from the Federal 
Highway Administration, but absent that are advising to rely on 
existing regulations in determining credits.
    There are three areas where guidance could assist 
contractors. First, standardizing the period in which the PPP 
credit should be reported and included in any indirect rate 
audit. The credit should be included in the same year costs 
were incurred.
    Second, I recommend that any contractors that are receiving 
PPP funds disclose in the notes to their indirect rate audit 
the calculated rate both with and without forgiveness 
considered.
    Lastly, inform procurement agencies, particularly 
transportation, the rates included in indirect rate audits 
should be used in negotiations, but that final prices can and 
should incorporate consideration of the impact of PPP 
forgiveness. Specifically, while the rate including PPP 
forgiveness can be used in year one of a multiple year 
contract, subsequent years should be renegotiated using rates 
that are not impacted by the PPP credit. Contracting agencies 
should also incorporate business judgment in negotiating a 
price that is fair and reasonable to both parties.
    These recommendations, I believe, align with generally 
accepted accounting principles, the FAR Cost Principles and 
would help alleviate negative financial impacts in subsequent 
years. Further, this would reduce confusion while also ensuring 
contractors receive the benefit originally intended by the 
CARES Act but without the potential to ``double dip'' and allow 
some contractors to receive a greater benefit than companies 
who do not contract with the government.
    Thank you very much for your time today.
    Ms. SALAZAR. Mr. Mfume, you are muted.
    Chairman MFUME. I was thanking all the witnesses for their 
testimony so far and reminding people that we all have their 
written testimony. If they have it nearby I would urge that you 
hold on to it because there may be some questions, comments and 
observations that go directly back to that.
    I would like to recognize Ms. Greenleaf at the current 
moment. Ms. Greenleaf, you have 5 minutes. The floor is yours.

                  STATEMENT OF ROBIN GREENLEAF

    Ms. GREENLEAF. Thank you very much, Chairman Mfume, and 
Ranking Member Salazar. Thank you for the opportunity to 
testify before the Subcommittee today.
    My name is Robin Greenleaf. I am the CEO of Architectural 
Engineers, Inc., a woman-owned engineering firm in Boston. We 
have 33 employees who provide mechanical and electrical 
engineering services to Federal, state, and local agencies and 
private companies and owners. I am also the Chair-elect of the 
American Council of Engineering Companies and I have the 
privilege of serving as National Chair starting in April. It is 
an honor to represent my colleagues here today.
    I cannot overstate how important this issue is to small 
business engineering firms across the country right now. My 
2020 experience is typical of hundreds and hundreds of my 
colleagues in the industry. We relied on the PPP loan to keep 
our entire staff on the payroll even in the face of significant 
business disruptions and revenue loss. And the program was 
successful. It met its intended objective.
    But now those of us who contract for government clients are 
facing the imposition of a credit under the FAR and we think 
this is completely misguided. Congress already made clear that 
forgiven PPP loans are not to be treated as income for tax 
purposes and then further clarified that covered expenses are 
deductible. In the same way, forgiven PPP loans ought not to 
count as income under the FAR. This was emergency relief to 
support employers and businesses ought to be able to take full 
advantage of the program.
    There are numerous challenges with this policy that I want 
to highlight for you. One, if this credit is applied to reduce 
our overhead rate as opposed by the Federal Highway 
Administration, we are going to be working at a discounted 
rate, not only in the coming year but potentially for several 
years. Many of our clients lock in the indirect cost rate over 
the life of a multi-year contract. On my $594,000 PPP loan on 
which we just received forgiveness last week, I am looking at 
32 percent drop in my overheard rate resulting in the loss of 
at least $129,000 per year. Only about 15 percent of my firm's 
work is with public agencies using our FAR rate. For firms that 
do predominately DOT work, it is easy to see how the losses 
will far exceed the value of the loan.
    This leads to my second point. The impact of the credit 
will fall most heavily on small, minority-owned, and women-
owned firms that needed the assistance the most and have come 
to perform a higher percentage of government contracting.
    I have documented a few examples in my written testimony 
and I hear from more colleagues every day. And so the basic 
outcome of this policy is that our state and local clients will 
be benefitting from the PPP, not us. We are passing the loan 
through to them through discounted billing rates. If unchanged, 
he application of this credit will create a disincentive for 
women-owned firms, minority-owned firms, DBEs, and other small 
businesses to compete for work for public agencies. It will 
derive the government of qualified engineering services and 
will hamper efforts to expand small business and DBE 
contracting opportunities.
    Let me also say that the inequity here with our 
counterparts in the infrastructure market is frustrating. Other 
contractors working on Federal aid projects are not subject to 
these same requirements. Fixed price contracts are not impacted 
by the FAR credits clause. While my rates are reduced, other 
businesses working on the same infrastructure projects have 
been able to retain the full benefit of the PPP. This uneven 
treatment does not seem fair or equitable.
    There is a real sense of urgency in the industry to get 
this issue resolved. Firms that already received forgiveness 
are starting the annual audit process and seeing the impact of 
the credit on their rates. Some business owners are already 
questioning whether they can continue to keep all their 
employees that they supported with the PPP loan. Those that 
have not yet applied for forgiveness are coming up on the 10 
month deadline to start repaying those loans. Banks are 
pressuring them to decide whether to apply for forgiveness. Our 
small business owners need to make critical business decisions 
about the impact on their rates and projected revenues and 
employment ramifications.
    At a time when the industry is very eager to work with your 
colleagues to deliver a robust infrastructure-based economic 
recovery agenda, your prospects for these opportunities are 
dimmer because of this credit holding us back.
    Thank you for the opportunity to testify.
    Chairman MFUME. Thank you very much, Ms. Greenleaf.
    Mr. Penin, you are now recognized for 5 minutes.

                  STATEMENT OF CARLOS A. PENIN

    Mr. PENIN. Good afternoon, Chairman, Ranking Member 
Salazar, all congressional members of the Subcommittee on 
Contracting and Infrastructure and everyone present.
    My name is Carlos Penin. I arrived from Cuba in 1962 at the 
age of six. I think I am giving away my age. I am a proud Cuban 
American who pursued a career in engineering and ended up 
fulfilling my American dream of starting my own business. The 
company that I started, CAP Engineering is a small, minority-
owned business that has been in operation in the city of Coral 
Gables, District 27, for almost 33 years. Today, I am 
addressing this Committee as the founder and president of my 
company representing my employees, but also as a former 
president of ACEC Florida, the organization that represents 
member engineering firms in the state of Florida.
    In Florida, we have hurricanes, and I have survived 
multiple hurricanes during our company's history, sometimes 
multiple hurricanes in the same years. The devastation from 
this pandemic has been far worse and nobody could have even 
predicted it, nobody saw it coming, and the severe impact that 
it has had.
    In the early months of the pandemic, we applied for and 
received assistance from the PPP. The assistance that we 
received was applied as intended to help keep our loyal staff 
employed so that they, in turn, could keep their families fed, 
safe, and healthy.
    The interpretation of the Federal Acquisition Regulation, 
the FAR clause, would reverse the benefits received from the 
PPP and could have a negative impact for our company and any 
company that pursues Federal or state contracting for years to 
come.
    As Robin so well pointed out, if the PPP loan forgiveness 
is unallowed and therefore subtracted from the indirect labor 
cost, then in our case our overheard rate would be reduced by 
approximately 25 percent. If we had multiple year contracts, 
the lower overhead rate would be applied for multiple years and 
for multiple contracts. This reduction would be higher than the 
original loan amount that we received, thus negating the 
original intent of the PPP loan which was to help companies 
such as ours keep our employees and thus help our families.
    I ask you to please consider our industry's request that 
this unintended consequence be eliminated. And as good 
engineers, we are supposed to finish on time and under budget 
and I yield back with 2 minutes and some seconds left over in 
my presentation. Thank you very much.
    Chairman MFUME. Thank you, and my thanks to all of the 
witnesses.
    We are going to begin the open session of questions and 
comments with members who are present today. And I would like 
to recognize myself for 5 minutes.
    Mr. Bingham, could you go back and elaborate on what the 
credit clause is and how it is supposed to work and how a 
Federal contractor is bound by the principle clause?
    Mr. BINGHAM. Certainly. A key issue for reimbursement of 
cost and just cost accounting generally is what is the cost 
recorded on a contract. And the cost recorded on a contract is 
direct cost plus indirect cost and less any credit. So the 
issues that are being discussed here relate--when people talk 
about paying their employees, that may well be a direct cost. 
It is hard to know if there are indirect employees but it could 
well be direct cost of performance. If they talk about paying 
for facilities cost or their indirect personnel, then that 
would be, you know, part of their indirect cost. But the 
credits, wherever the credits, wherever the loan money is 
spent, that is where the credit should go. If a company uses 
the loan for a particular contract, only to reimburse employees 
on a particular cost, then the credit should go to that 
particular contract, not other contracts, not on overhead. If 
the credit went all to facility cost and overhead, then the 
forgiveness should go only to overhead.
    I hope that helps you understand that in determining the 
cost on a contract, the credit has to be reduced from wherever 
the loan was spent. That is where the reduction occurs.
    Chairman MFUME. Okay. And Ms. Moser, I am just going to 
stay on the matter regarding these credits. You mentioned in 
your testimony that DCAA issued guidance on how the credits 
should, in fact, be applied. Could you take a moment and expand 
on the major points of that guidance and how it really works in 
practice?
    Ms. MOSER. Yes. I would be happy to.
    So DCAA issued its guidance in January which had a number 
of different areas that they addressed. The first area is they 
were clear, and this is consistent with the earlier DoD 
guidance and consistent with the testimony we just heard, that 
loan forgiveness proceeds should be applied in the same manner 
in which the original cost was occurred. So just as we heard 
before, if direct salaries were used and it could be for 
commercial work or on direct cost reimbursable work, that 
portion of the credit should go back to that where it was 
originally incurred. If it was included in the overhead, that 
is where it should be incurred. So that was pretty 
straightforward and I think consistent with FAR.
    DCAA's guidance suggested or stated that--and DCAA, when 
they issue guidance, they are actually issuing guidance to 
their auditors. The general public and contractors certainly 
use that as a reference but they are issuing guidance to their 
auditors. But they also stated that when the credit is received 
is the year in which it should be applied. So that creates some 
inconsistency as companies have incurred the loan forgiveness 
of PPP during 2020 and they are going to get proceeds or 
forgiveness in 2021. That matching, that inconsistent matching, 
I believe is not correct.
    They also did address a number of other areas in their 
guidance including guidance on contractors doing forward 
pricing. So a forward pricing rate agreement is a forward 
looking forecast of rates that is used for certain types of 
contracts. It is typically used in negotiating fixed price task 
orders or change orders. So they did include in their guidance 
that consideration should be given to--2020 we have all 
acknowledged was an unusual year with unusual circumstances. 
And costs incurred and credits incurred in this year should be 
considered in looking at forward looking. Just because 
historical reference is not necessarily the prediction of what 
the future rates would be. So those were the specific areas 
they addressed.
    Chairman MFUME. Thank you very much, Ms. Moser.
    My time has expired. The Chair will recognize the Ranking 
Member, Ms. Salazar.
    Ms. SALAZAR. Thank you, Chairman.
    I think I want to use my 5 minutes. Maybe I can ask the 
same question to the different witnesses. And I would start 
with Mr. Penin and then I can ask Ms. Moser.
    I think that the main concern the government has is to 
avoid the double dipping. So if you were in our position, what 
would be your recommendation? I am sure Mr. Penin, Ms. Moser, I 
am sure that all of you do not want that happening. We do not 
want to have to pay twice. So in which way could we be able to 
be fair to you but at the same time not pay you double?
    We will start with you, Mr. Penin.
    Mr. PENIN. Thank you very much for the question, Ranking 
Member Salazar.
    That is more of an accounting function. I do not think that 
it is double dipping. We used the loan for what it was intended 
to be used, which was to save our employees, and we did that. 
When we sought the PPP funding, we looked at it as the lifeline 
to get to the other side of the pandemic and that, as we have 
heard oftentimes, that goalpost kept moving on us over and over 
again. So it was a vital opportunity for us to be able to stay 
alive, stay afloat during this last year.
    As far as the FAR and how that is used, as I mentioned in 
my testimony before, that has a negative impact on the bottom 
line because what happens is it gets applied to the indirect 
labor cost, and therefore, it pushes our multiplier down. And 
in some cases as we will experience in my company, it will put 
us at 25 percent below what we are currently doing today.
    So we see this as a loan, a forgivable loan that has 
carried us through last year. It is not reoccurring but the 
unintended consequence could reoccur for multiple years to 
come. I hope that answers your question.
    Ms. SALAZAR. Sure. Yes. Thank you.
    Why do we not then ask Ms. Moser? Ms. Moser?
    Ms. MOSER. Yes. So the FAR incorporates the cost principles 
into certain types of contracts. So specifically, the flexibly 
priced contracts, cost-type contracts, time and materials 
contracts. And I do not think waving the credits clause cart 
blanche related to PPP is the appropriate thing to do because 
it could lead to unintended consequences and it could provide a 
situation where contractors that have only flexibly-priced 
contracts would double dip. Basically, they are billing the 
government for all of their costs incurred and then they are 
getting the forgiveness. And so I do not think people want that 
to happen, certainly not as a tax payer. I think the challenge 
is that the cost principles are referenced in many other types 
of contracts and a lot of what we are hearing is regarding 
state transportation contracts. And so my recommendation is not 
a waiver of the FAR credits clause; it is really about issuing 
better guidance and explaining the situation so that 
contractors negotiating with state transportation agencies, for 
example, have all of the information about the impacts that, 
you know, the rate needs to be calculated as the rate is 
consistent with the FAR, but how that rate is utilized in 
subsequent years I think is really where the guidance is 
needed. So, you know, the timing of the guidance from DCAA I 
think is a problem and then I think the lack of guidance or 
concerns about proposed guidance that might be issued from the 
Highway Administration--that is really where I think the focus 
is.
    When guidance is issued by audit agencies, they do not seek 
public comments. And with lots of proposed regulations, there 
is public comment and an opportunity for people to weigh in. 
And I think, you know, that certainly could be helpful to this 
process to improve upon.
    Ms. SALAZAR. So it is not necessarily an accounting issue 
according to what you are saying but it is just clarification?
    Ms. MOSER. So I think the accounting in terms of how the 
credits clause should be applied is clear and does not require 
a change. I think it is the application of how those rates are 
utilized in subsequent years' contracts.
    Ms. SALAZAR. Thank you. I yield back.
    Chairman MFUME. Thank you, Ranking Member.
    The Chair would like to recognize Representative Golden 
from the state of Maine. Mr. Golden?
    Mr. GOLDEN. Thank you, Mr. Chair.
    I think I will start with Ms. Moser. And I wanted to ask if 
there are other examples out there in addition to the PPP 
program where we have COVID-related Federal assistance for 
which a contractor might have to provide the government with a 
credit. And if the answer is yes, could you also elaborate a 
little bit about why?
    Ms. MOSER. Yes. I would be happy to.
    I think the most immediate additional assistance is the 
employee retention credit. So when the employee retention 
credit was first incorporated into the CARES Act, companies 
that received PPP loans were not eligible for the employee 
retention credit. So for most contractors, you know, PPP was 
that lifeline, that immediate assistance that they were seeking 
so they really didn't focus on the employee retention credit. 
With the legislation that passed in December, that made 
available the employee retention credits for companies that 
also received PPP loans.
    The employee retention credit is a credit against payroll 
taxes. So it is consistent with the credits clause--so a 
company that is a contractor that has flexibly priced 
contracts, cost contracts. If they are eligible to receive an 
employee retention credit, it is a reduction against the 
payroll taxes that they pay. So it would be treated 
consistently if they originally recorded the payroll taxes say 
in 2020 when they paid them, it would go to a fringe. Usually 
that is an indirect expense considered a fringe benefit. When 
you receive the credit, it should be applied back the same in a 
similar manner. So it is a very similar situation.
    Mr. GOLDEN. Thank you. I think that is helpful.
    Ms. Greenleaf, you testified that engineering firms 
particularly have difficulty compared to other contractors that 
also do business with state departments of transportation. And 
I wanted to ask you if you could elaborate a little bit further 
on that. And secondly, I wanted to ask if you felt that should 
Congress mandate DOT to issue guidance that would ensure that 
indirect cost rates were trued up based on what a firm's real 
indirect costs were for the year impacted by the credit, would 
that address ACEC's concerns?
    Ms. GREENLEAF. To answer your first question, I think that 
the engineering firms in general, many of us work for state 
DOTs. And so the guidance, the draft guidance that has come out 
from Federal Highway at this point is taking a very hardcore 
approach to how to deal with the PPP credit. So it is one 
reason why we were pushing back so hard on this issue.
    We are part of a very narrow band of impacted professionals 
that are feeling the pressure from the FAR credit clause. It 
does not extend far beyond just those of us who work for state 
DOTs. And so based on that, that is why we are wanting to just 
see the loan be completely forgiven and not have to apply the 
credit.
    So having said that, I am going to need to ask you to 
repeat your second part of your question and then I will come 
right back to you.
    Mr. GOLDEN. Yes. If Congress were to mandate that the 
Federal Department of Transportation issue guidance that would 
ensure that indirect cost rates were more accurately reflecting 
a firm's real indirect costs for the year impacted by the 
credit, would that in any way address the concerns of your 
organization?
    Ms. GREENLEAF. I do not know that it does. The reason for 
that is that the state DOTs, and that is largely who we are 
talking about, are inconsistent across the country in their 
ability to do the truing up on an annual basis. And I can tell 
you from personal experience in Massachusetts that the work 
that I do here, we are put in what is the equivalent of multi-
year contracts. The overhead rate does not change. It is very 
difficult to get an audit to request the change. And I think 
that based on that what we could expect is just a lot of 
inconsistency across the DOT's abilities to do the truing up 
and to do annual audits.
    Mr. GOLDEN. That is very helpful.
    I see I only have 10 seconds left so I will yield back the 
8 seconds.
    Chairman MFUME. Thank you very much, Representative Golden.
    The Chair would now recognize Mr. Stauber. Did we lose him? 
Okay, maybe he will jump back in. Okay, Mr. Stauber is out.
    Ms. Salazar, I do not see any other members from your side 
of the aisle. Am I missing someone?
    Ms. SALAZAR. Yeah, they had other Committee meetings going 
on at the same time. And myself, I have to go to Foreign 
Relations. But I am staying here with you until you have 
finished with all the testimonies.
    Chairman MFUME. Thank you. Mr. Fitzgerald is here though, 
and I would like to recognize Mr. Fitzgerald for 5 minutes. 
Thank you, sir.
    Mr. FITZGERALD. Thank you. Thank you. Just real quick to 
Mr. Carlos Penin.
    I understand today we are kind of focused on the PPP stuff, 
but in the COVID bill that recently passed it did include some 
language on section 36.10 that authorizes agencies to address 
contractor employee salaries. I was wondering if you had any 
comments on that. You know, it is kind of related to 
catastrophic events and what my understanding is. I do not know 
more than that about it. But I just wonder if you could provide 
any insight into the impact that that may have.
    Mr. PENIN. Thank you for the question, Congressman 
Fitzgerald. I am not familiar with the new legislation and I am 
not going to be helpful to you on that. I have not read it.
    Mr. FITZGERALD. Very good. Yeah, it is kind of a struggle 
and I think a lot of us have been caught off guard because of 
the legislation just signed into law. But I would urge the 
Chair and the Ranking Member, I think it is something that we 
need to probably take a look at and hopefully, because it seems 
to be boiling up right now. So thank you, and I will yield 
back. Thank you.
    Ms. SALAZAR. Chairman?
    Chairman MFUME. Yes.
    Ms. SALAZAR. I think we do have Congressman Meuser with us. 
Is that correct? So we can recognize him?
    Chairman MFUME. I see him. Yes. Yes.
    We will first recognize Ms. Newman for her 5 minutes and 
then we will come back to Representative Meuser.
    Ms. Newman?
    Ms. NEWMAN. Thank you, Chairman. And thank you, Ranking 
Member Salazar.
    This is a very timely issue in my district. Dozens of small 
businesses have come forward to talk about this with us, so I 
am so glad for the testimony today. And thank you to all the 
witnesses. It has been very helpful to dimensionalize this for 
me.
    I have a couple of questions and I think I would like Ms. 
Moser and Mr. Penin to answer them. And I will go to Mr. Penin 
first.
    So it clearly seems like there is an issue here that can be 
addressed, and I do not think it has to be brain surgery. What 
is your recommendation? Does it need to be a clarification of 
rules? Is it regulatory? Or do you think it requires 
congressional intervention? And I will go to Mr. Penin first.
    Mr. PENIN. Thank you very much, Congresswoman Newman. And 
thank you for your concerns for your district as well. I think 
that for us it is probably a clarification of the language and 
how it is being applied more so than an act of Congress. I am 
trying to keep it simplified because, you know, if you started 
getting too many people involved, you know, it starts to muddle 
the situation. But I would think that it is something that can 
be handled as long as there is a clarification of the 
interpretation. And I think that that would be the easiest way 
of handling it. And it certainly would serve our purpose on the 
industry side to have that resolved.
    I hope that answered your question.
    Ms. NEWMAN. Yes. Yes. And then I need to go to Ms. Moser. 
From a technical standpoint, or from an accounting perspective, 
what would your remedy be?
    Ms. MOSER. Yes, thank you.
    So I agree with Mr. Penin. I do not believe that there is 
legislative action that is needed to rectify this situation. I 
think that could end up with unintended consequences. I really 
think it is an issue of clarification on guidance.
    The DCAA, as I mentioned, their guidance is issued to 
auditors. So, while I disagree and I think it is an incorrect 
guidance on the timing of the application, ultimately 
contracting officers make those recommendations. The DCAA is 
making recommendations to its auditors; contractors if they do 
not agree with that, ultimately, it is up to the contracting 
officer to make a decision on that.
    I think the biggest issue, and I think what we have really 
heard here today is really related to Federal Highway 
Administration and that guidance because that does flow down 
to, as you heard, the state agencies. And I think that is 
really where the majority of the angst and the concern is that 
without additional guidance and recommendations to state 
agencies there is going to be unintended consequences longer 
term than just this year.
    Ms. NEWMAN. So just to clarify that, Ms. Moser, you are 
saying that the clarification should be some recommendation 
from Congress with regard to the PPP program but then also 
instruct the state and local agencies as such as well, both 
steps?
    Ms. MOSER. Well, I do not think necessarily that Congress 
has, other than trying to get the agencies to issue the 
guidance, I think that is really what is needed. And then 
really it is the guidance that they issue because all of the 
state agencies are looking to Federal Highway Administration 
for guidance. So I think really the guidance is needed with 
clarity from the Highway Administration.
    Ms. NEWMAN. Thank you for clarifying that.
    I yield back. Thank you, Chairman.
    Chairman MFUME. Thank you very much.
    I would like to at this time recognize the gentleman from 
Pennsylvania, Mr. Meuser.
    Mr. MEUSER. Thanks, Mr. Chairman. Thank you all to the 
testifiers. Appreciate it. It is an important subject, clearly. 
Very financially important situation that needs clarification. 
No question.
    So I ask, and I will start with Ms. Moser and I will also 
ask others as well, what was understood by you at the time that 
you submitted for what was described as a forgivable business 
loan? Was it understood that this was to be completely 
forgivable under the conditions of retaining your employees?
    Ms. MOSER. Hi, since you asked me to address first, so I am 
an advisor. I am a partner in an accounting firm and so I 
advise clients, so I was not applying for a PPP loan. You know, 
I think like just with most of our clients at the time, you 
know, it was a lifeline, and so I think most companies, you 
know, had no idea what was going to happen and so did apply. 
That was generally our recommendation.
    Mr. MEUSER. Right.
    Ms. MOSER. Obviously, there has been much guidance since 
then but I think that the forgiveness issue is really for 
contractors. There has been much analysis and angst, frankly, 
on whether they should or should not apply for forgiveness, 
again, depending on really their contract nicks in terms of how 
that is going to----
    Mr. MEUSER. So you advise that, yes, they should take loans 
under the understanding of the requirements for PPP and 
therefore, it would be forgivable if they met those 
requirements?
    Ms. MOSER. Yes, generally if they met the requirements. 
Yes.
    Mr. MEUSER. Mr. Penin, is that what you understood from the 
original language of the provision in the legislation?
    Mr. PENIN. Congressman Meuser, thank you very much. Yes, 
that was our understanding. And as I mentioned in my testimony, 
this was our lifeline. And then the interpretation came after 
the fact. And I think that is kind of where we are today. It 
was an interpretation given after the fact and that is kind of 
what surprised a number of us in passing the torch.
    Mr. MEUSER. And I realize there are many, many dynamics. In 
fact, there is facing a business, any business, engineering 
contract, whatever it might be, particularly with a pandemic 
coming along, particularly even in my state where outdoor 
construction was shut down for a while with state contracts, 
contracts with employees not able to come in out of fear, out 
of having COVID, out of family members, out of children at 
home. So it was a very upheaveled period. And I am certainly on 
the side of small business.
    But let me ask you this. If there is a guaranteed revenue 
stream that would be ascertained and made clear, the whole idea 
behind PPP was to sustain a small business during a loss of 
revenue period for the purpose of not losing them over the 
short term and the long term and not having them go on 
unemployment.
    Now, that being the case, is all your business by the way 
contracted this way or is it just a percentage? Is it 50 
percent of your revenue comes from the contracts that are 
affecting the potential PPP?
    Mr. PENIN. Yes, sir. I assume that question is for me. Yes, 
sir. I would say that the majority of our work comes from 
government contracting. We are a small company. Most of that is 
as a subconsultant to larger state and national or 
international companies. But it passes down to us because we 
still have to go through our FDOT in our case audit. And that 
is where this interpretation is going to be implemented. So 
yes, sir, most of our business is government-based. The long-
term contracts are essential for small businesses because of 
the stability that it provides.
    Mr. MEUSER. Right. I am just trying to get to where the 
revenue loss--did you suffer revenue loss during this time 
period?
    Mr. PENIN. Yes. Yes, we did. Yes. We kept our employees. We 
kept our employees but we had tremendous losses in revenue 
because, I mean, we came to a screeching halt.
    Mr. MEUSER. Okay. Well, that pretty much answers my 
question then and should uncover any doubts that the original 
intent of this PPP should be upheld.
    What about the second round of PPP, did you apply for that?
    Mr. PENIN. We have not applied for that. We have not 
applied for that.
    Mr. MEUSER. Okay. Very good.
    Mr. Chairman, I do not have any more questions. I yield 
back. Thank you.
    Chairman MFUME. Thank you, Mr. Meuser.
    We are going to start the second round of questioning, and 
I will lead that off by asking Mr. Bingham if he would help put 
some context into this discussion. I think we all know what the 
purpose or the stated purpose of FAR 31 is, but can you tell me 
when the principles of FAR, part 31 kick in? Is there a certain 
requirement, number of requirements, or something else that you 
might be able to share with us in terms of its implementation?
    Mr. BINGHAM. Yes. Yes. Thank you for the question.
    The requirements of FAR 31 kick in when there is a sole 
source or when there is procurement of a cost reimbursement 
contract or a sole source procurement where it is a situation 
where the contractor has to provide cost information, you know, 
the cost estimate to the government customer. And so it is 
under circumstances of that nature. If a contractor, if there 
are sealed bids, in other words, there was adequate 
competition, then the government buyer is supposed to base its 
decisions on the price offered by various competent contractors 
and not get into what their cost history is or what their 
indirect costs are or their direct costs, any of that type of 
information. That is the way they are intended to focus it.
    And I will just add to the discussion about the indirect 
cost rates. The intended approach in the FAR with regard to 
future indirect cost rates is not that you just take the 
indirect rate for a past year and assume that it will be 
matched going forward. That would be contrary in my 
interpretation to both the FAR and the audit guidance from the 
DCAA, for example. And so the issues seem to be related to this 
idea that some agencies, some state-related agencies are just 
forcing the situation where whatever the past indirect rate 
was, that indirect rate will be all that is allowed in some 
future year.
    I hope I answered your question.
    Chairman MFUME. You did, but I am going to ask you to step 
out on a limb and tell us how you would fix this if you had the 
ability to do so overnight.
    Mr. BINGHAM. Yeah, I think I agree with Ms. Moser in the 
idea of guidance. I think if the state departments of 
transportation, if they did more what the Federal government 
auditors do, the DCAA auditors do looking at the guidance 
there, you know, it is in FAR 42 and 44, I believe, and then 
not this recent DCAA memorandum to regional directors but back 
to the DCAA's contract audit manual on how you audit indirect 
rates and how you audit forward pricing rates, these indirect 
rate that are going into the future. If they follow that type 
of guidance, my impression is that would solve a lot of this. I 
do not think they are following that type of guidance right 
now. I think it sounds like they are imposing that the same 
past indirect rate must be used going forward. So that would be 
my ``I am out on a limb.'' That is about as far out on the limb 
as I will go. Thank you.
    Chairman MFUME. Well, thank you, sir.
    I want to yield to the Ranking Member, Ms. Salazar.
    Ms. SALAZAR. This question is for Mr. Bingham and for Ms. 
Moser as well and Mr. Penin, three of you.
    If by any chance this interpretation of the FAR stance and 
the DoD does not change, they cease the way that they do 
business with you, in which way not only will it affect your 
decision to continue working with the government, or will you 
then decide to seek other work in the private sector alone? How 
will this change your future is basically what I would like to 
hear from you?
    And we will start with you, Mr. Penin.
    Mr. PENIN. thank you very much for the question.
    If the interpretation of the FAR stands, it will adversely 
affect our multiplier and therefore, our ability to continue to 
work on government contracts.
    I mentioned earlier, in our case, in our particular case it 
would be approximately 25 percent of our multiplier would be 
affected. We would go from 1.25 to 1.0 and that is a huge 
impact on our business. The minority companies and small 
businesses rely on the government because of the long-term 
contracts that we can obtain from government. In this case, if 
this rate were to go on for further years then we would be 
punished by the same percentage for multiple year contracts and 
in some cases it would impact multiple contracts. So for us 
that would be a deterrent from pursuing government contracts.
    The private sector is on a rebound. Whether we would 
concentrate on that alone would have to be a financial decision 
that I am not 100 percent sure right now that I can make but we 
see that if we cannot rely on one. You know, we have to be 
resilient. That is what makes us survive. I told you we have 
been in business for 32 years. So we will look for whatever 
opportunity we can to get to next year and the next year and so 
forth and so on. But I would say that it would certainly impact 
our ability to, and our desire to contract with government 
under those conditions. Thank you.
    Ms. SALAZAR. Ms. Moser?
    Ms. MOSER. So again, I do not contract directly with the 
government. I just advise companies that do. So I am really not 
in a position to address the issue.
    Ms. SALAZAR. What would be your advice to those clients? 
What would be your advice?
    Ms. MOSER. So, again, I really think the issue, if the 
Federal Highway Administration issued guidance, each of the 
state agencies, and our firm does these indirect rate audits 
for many engineering firms and deals with many state auditors, 
the state DOT agencies are looking for guidance. We have 
reached out to all of them. They are asking for guidance from 
Federal Highway Administration so I think absent any guidance 
then they feel like they do not really have a choice on what 
they do. So I really think Highway providing guidance and 
recommendations on what is the purpose of the indirect rate 
audit and how should it be used going forward into future----
    Ms. SALAZAR. I am going to interrupt you so I can give the 
opportunity to Ms. Greenleaf, which I did not recognize and 
then to Mr. Bingham.
    Ms. GREENLEAF. Thank you for the----
    Ms. SALAZAR. You have 2 minutes. Yeah.
    Ms. GREENLEAF. Thank you for the opportunity to respond.
    I think the one point I would like to make is when I took 
my PPP loan, it was really under enormous duress. Our business 
was disrupted. We had to work remotely. And the idea that we 
would end up as part of a very, very small sector of the entire 
PPP universe that would not be able to take full advantage of 
the PPP loan and the original intent is what is driving my 
being here today. So, I agree with what Ms. Moser is saying 
about good guidance coming from a possible [inaudible] step in 
the right direction, but I think for ACEC, what I would like to 
drive home is that we would like to be treated like every other 
company that took a PPP loan out.
    Ms. SALAZAR. Just 1 minute 35 seconds to Mr. Bingham.
    Mr. BINGHAM. Thank you for this opportunity to respond. I 
will just say, and I am an advisor to companies as well, but I 
think the guidance in FAR 42-7 and the DCAA's guidance on this 
point about the indirect rates, that you do not blindly accept 
their past year as the future year and forecast that into the 
future. I think if a government entity was telling me that they 
were going to force me to have the same rate in the past as the 
future, I think I may be able to read them passages from FAR 
42-7 in the DCAR manual to show them why that is inappropriate. 
Thank you.
    Ms. SALAZAR. Thank you. And I would like to recognize 
Member Stauber. He just joined as Chairman.
    Chairman MFUME. Yes. Yes. I will do that in his turn. He 
actually, for the record, was with us earlier and stepped away 
so we are glad that you are back, Ms. Stauber.
    The Chair at this point will recognize the gentlewoman from 
Illinois, Ms. Newman, for the second round.
    Ms. Newman? Are you back with us?
    Okay, so let's do this. I will go to the gentleman from 
Minnesota, Mr. Stauber.
    Mr. STAUBER. Thank you, Mr. Chair. And thank you for all 
the witnesses. I really appreciate your time.
    You know, at a time when our small businesses are trying to 
recover from the crisis, for small contractors, the continued 
changes in guidance and memorandums from government agencies 
have caused a lot of headaches and confusion.
    Mr. Penin, what is your reaction or your thoughts to the 
government's motive of prevention of double dipping?
    Mr. PENIN. Thank you very much, Congressman.
    I do not believe that double dipping applies, and I say 
that simply because when we applied for the PPP loan and we 
processed our paperwork for forgiveness, we consider that as a 
self-standing item and not something that we were going to be 
penalized for later.
    Mr. STAUBER. Okay. Thank you.
    My next question is for Ms. Greenleaf. Given your position 
with ACEC, what are you seeing from this particular group of 
businesses? Are many of them seeking loan forgiveness or not? 
And have any of your members decided to forgo forgiveness or 
even give the loans back due to this confusion?
    Ms. GREENLEAF. Yeah, I think that is a great question, and 
thank you for asking it.
    I think our members are waiting to see what comes out of 
Federal Highway for final guidance. For me, I did apply for 
forgiveness and my firm did receive it, but I have been 
checking with colleagues and it is a very inconsistent 
approach. People would like to apply for forgiveness. They 
would like to understand the ramifications if they do. Some of 
the smaller firms like mine, I may have to make some business 
decisions about who my clients might be for the next year or 
two and point out that on top of the need to really reach a 
conclusion that we can all make decisions from is the fact that 
the administration is trying to push a very, very large and 
serious infrastructure bill out over the summer and we are the 
firms that will be hopefully having a part in designing all of 
these new transportation projects that may come out. And yet, 
if what we were trying to do is knowing that we are getting 
into these at a potentially greatly reduced rate. It is a very, 
very difficult position to be in.
    Mr. STAUBER. Thank you. And then Ms. Greenleaf, again, 
could you speak to how this could impact small businesses 
working on state and local transportation projects?
    Ms. GREENLEAF. So a firm like mine, we have already done 
the math. I know what the reduction in overhead rate and 
corresponding hourly rates will be if I choose to continue to 
work for our state DOT. And you know, for me they are a very 
valued client and I want to find a way to continue supporting 
them. Many of the larger projects at the state level are 
comprised of very large teams, so it could have very large 
engineering firms that are driving the projects. The team is 
very diverse and there might be, you know, 10 firms just like 
mine that are all seeking to gain experience on large projects. 
So it is a big impact.
    Mr. STAUBER. You know, I look forward to discussions on the 
infrastructure project. I certainly hope it is bipartisan and I 
certainly hope that the minority has input on it because I 
think it has a potential to be really good legislation. We know 
that it has been needed and we just want to have input on it.
    So Mr. Chair, thank you very much and I yield back to you.
    Chairman MFUME. Thank you very much, Mr. Stauber.
    I am going to attempt to go to Ms. Newman again. I do not 
know if she has her speaker system on. I have seen her go by 
her camera a couple of times. And Ms. Newman are you there?
    I guess she is not.
    The Chair recognizes Mr. Fitzgerald.
    Mr. FITZGERALD. Thank you, Mr. Chair. I have no further 
questions at this time. I would yield back. Thank you.
    Chairman MFUME. Okay. And Ms. Salazar, any further comments 
from you?
    Ms. SALAZAR. I think that we have gathered a lot of 
information between you, we definitely will fit and figure out 
how we can make this work for the private sector with more 
clarification as some of them have said and with the accounting 
process having been reviewed. And I think that is our duty and 
our job to make it easy for them, for the private sector and at 
the same time avoid any type of double dipping which that is 
what we are here for.
    So I am looking forward to working with you, Mr. Chairman. 
I yield back.
    Chairman MFUME. Well stated, and the feeling is mutual.
    I want to thank you again. I want to also thank all of our 
witnesses who have made time to be with us. Your expert 
testimony, in my opinion, has been invaluable and given the 
members of this Subcommittee a greater understanding of how 
this complex issue impacts small businesses. Small contractors 
as we all know have been devastated by this pandemic. And so it 
is important that we ensure that they are not inflicted with 
any further harm, and at a minimum we must ensure consistency 
in the application of the rules that govern Federal 
contracting.
    So I look forward to working with today's witnesses and 
Subcommittee members to find a path forward so that we might be 
able to come up with an equitable solution for these small 
businesses.
    And I would ask, as I have mentioned earlier, unanimous 
consent that members have 5 legislative days to submit 
statements and supporting materials for the record.
    Without objection, it is so ordered.
    If there is no further business to come before the 
Committee, we officially stand adjourned. Thank you all. Have a 
good day.
    [Whereupon, at 1:21 p.m., the subcommittee was adjourned.]
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
